                             TESTIMONY OF

             THE HONORABLE DONALD A. GAMBATESA,

                         INSPECTOR GENERAL,

         U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT


                               BEFORE THE

     COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM,

                  U.S. HOUSE OF REPRESENTATIVES



          USAID SUSPENSION AND DEBARMENT PROCESS




                            MARCH 18, 2010




      Chairman Towns, Ranking Member Issa, Members of the Committee,

I am pleased to appear before you today to testify on behalf of the Office of

Inspector General (OIG) for the U.S. Agency for International Development

(USAID) and to be joined by my colleagues from other oversight
                                     -2-


organizations and representatives of the agencies with whom we work to

prevent fraud, waste, and abuse in agency programs and operations. Today,

I would like to share our assessment of USAID’s activities related to

suspension and debarment.

      USAID relies heavily on contractors and grant recipients to advance

Agency goals and objectives and implement major development projects.

From fiscal years (FY) 2003 to 2007, USAID awarded approximately $4

billion in contracts and grants per annum. By acting in the public interest to

suspend or debar underperforming firms and firms and individuals convicted

of wrongdoing, USAID can help ensure the prudent use of taxpayer dollars

by excluding these firms and individuals from Government-financed

activities. It is therefore vital that the Agency maintain effective processes

for (1) examining cases to determine whether to pursue suspension and

debarment actions, (2) carrying out suspensions and debarments, and (3)

using information about suspensions and debarments in contracting and

grant-making processes. Shortcomings in the suspension and debarment

process could result in missed opportunities for USAID to identify

contractors and grantees that perform unacceptably and to prevent other

agencies from experiencing decreased productivity, increased cost, or

possible abuses caused by these contractors and grantees.
                                       -3-


      As you know, in October 2009, we concluded an audit of USAID’s

suspension and debarment practices for FY 2003 to 2007. Our audit found a

number of problems with Agency practices and decision-making processes

that constrain it from operating as effectively as it could.

      USAID undertakes a range of actions to address poor performance

and wrongdoing by contractors and grantees. These actions exist along a

continuum that extends from denials of claims to contract terminations,

and—in the most serious cases—from compliance agreements to

suspensions and debarments.         The serious nature of suspension and

debarment requires that these exclusions be imposed only in support of the

public interest and not solely as a response to past performance that could

have been better. Our examination of USAID’s suspension and debarment

activities reveal no instances in which the Agency had pursued these

sanctions with insufficient cause.      Indeed, the subjects of eight of the

Agency’s nine suspension and debarment cases from FY 2003 to 2007 had

been indicted or convicted in a civil or criminal proceeding.

      Rather than applying these sanctions too broadly, USAID had not

considered the use of suspension or debarment in all cases in which they

might have been warranted. Over the period of our audit, USAID had

limited consideration of suspension or debarment chiefly to entities subject
                                      -4-


to indictments or convictions. Further, it had weighed these sanctions only

in cases that had been investigated by our office. USAID did not take

suspension or debarment actions in response to any other type of referral—

such as those from our office in cases that had been declined for prosecution

but nevertheless were candidates for suspension and debarment, or referrals

from contracting officers or other Agency employees. In two cases, USAID

did not take action to suspend or debar firms even when they had

acknowledged     making     significant     false   and   inflated   claims   for

reimbursement. Nor did it seek suspension or debarment of any entities on

the sole basis of a demonstrated pattern of serious and continuing

unsatisfactory performance or unsuitability.

      This limited approach to considering suspensions and debarments led

USAID to apply these sanctions in relatively few cases. During the period

covered by our audit, USAID documented or reported suspension actions in

only two cases and debarment actions in only seven. These actions applied

to $378.5 million in grants and contracts out of an estimated total of

$20 billion during the period.

      When USAID did pursue suspension and disbarment actions, it did

not always execute them properly. In particular, USAID did not routinely

abide by Federal guidelines on providing notice of its final debarment
                                     -5-


decisions, entering suspension and debarment information into the Federal

database of excluded parties, or documenting the actions it took.

       USAID is required to formally notify contractors of final debarment

decisions within 30 days of procurement debarments and within 45 days of

nonprocurement debarments. However, USAID met those time standards in

only one of its six documented debarment cases. In three cases, the Agency

never sent final notices of debarment to contractors. USAID’s failure to do

so could have created uncertainty about its actions and provided affected

contractors with a basis to contest their ineligibility to compete for and

receive Federal awards.

       As you know, a key step in the process of effectively suspending or

debarring an organization from Government contracts and awards is listing

the entity in the Excluded Parties List System (EPLS)—the system for

tracking entities that have been debarred, suspended, proposed for

debarment, declared ineligible, or otherwise excluded or disqualified. By

entering information into EPLS, USAID can help ensure that its personnel

and those of other agencies do not award funds to suspended and debarred

entities.   Federal agencies are required to enter information about their

exclusion actions in EPLS within 5 workdays. Despite this requirement, we

found that the Agency had taken longer to list excluded entities in EPLS in
                                      -6-


six of nine cases. In one case, it did not enter complete information, and

omitted four debarred entities from EPLS.

      In another case, we had difficulty discerning what steps, if any, the

Agency had taken to implement a debarment decision because the division

responsible for maintaining debarment records had no documentation of the

matter.   This instance of poor recordkeeping appeared to be part of a

troubling pattern arising from a lack of standard documentation procedures

and inattention to proper record-retention practices.

      Finally, we found that USAID had not consistently used available

information on excluded firms to inform its contracting processes. Federal

agencies must perform EPLS checks at two points before awarding funds:

during the bidding process and during the award process. To determine

whether USAID had consulted EPLS as required, we reviewed a random

sample of Agency contracts.       We found that USAID generally lacked

documentation that it had checked EPLS during the bidding process, and

documentation of such checks during the award process was inconsistent.

USAID could not establish that it had performed required EPLS checks at

any point for 20 of the 54 contracts we examined.

      Given the Agency’s limited consultation of EPLS during the

contracting process, we were concerned that it may have awarded funds to
                                     -7-


entities precluded from receiving them. Fortunately, our analysis of USAID

acquisition and assistance records found no instances in which the Agency

had engaged in business with excluded parties listed in the system.

      USAID relies on primary contractors to certify that their personnel

and subcontractors are eligible to receive Federal funds. Primary contractors

must certify that they are sufficiently responsible to carry out a Federal

contract and not restricted from so doing. However, USAID did not always

ensure that its contractors provided such self-certifications, as 15 of the 54

contracts we reviewed did not have completed certifications.

      Taken together, our findings present significant opportunities for

USAID to improve the effectiveness of the suspension and debarment

process. We believe that the organizational approach to suspension and

debarment that the Agency has taken has reduced its ability to effectively

use these exclusions. At the time of the audit, USAID had concentrated

responsibility for the review, approval, and implementation of these

exclusion actions in the hands of offices and individuals with many varied

responsibilities, which may take their attention away from suspension and

debarment responsibilities. At the working level, suspension and debarment

activities were managed by a division with 17 other significant

responsibilities. At the time of our review, this division had no full-time
                                     -8-


staff dedicated exclusively to suspension and debarment matters. USAID’s

suspension and debarment official was also its senior procurement executive

and the Director of the Office of Acquisition and Assistance.

      We surveyed six other Federal agencies with active suspension and

debarment programs and learned that four of them had established divisions

or offices specifically dedicated to debarment activities. These units had

full-time, dedicated personnel and legal support. We recommended that

USAID consider adopting a similar organizational approach.

      Overall, our report made 12 recommendations for improvements to

the policies, procedures, and approach that the Agency has taken with

respect to exclusion actions. USAID managers agreed with nine of our

recommendations and planned steps to address them. The Agency is still

considering recommendations on enhancing its focus on suspension and

debarment procedures and adopting best practices. As of March 15, 2010,

USAID has not taken final action to close any of the audit’s

recommendations.

      Suspension and debarment are not the only tools available to USAID

for addressing concerns about contractor and grantee performance, and we

recognize that these sanctions should be applied judiciously. The scope and

scale of many performance issues may call for less severe measures.
                                      -9-


However, we believe that the Agency should consider suspension and

debarment actions in more cases and develop more effective procedures and

approaches for pursuing them. Current limitations in USAID’s approach

constrain the Agency’s contributions to a system that supports the public

interest and adds to the fundamental fairness of Government contracting and

grant making.

      USAID has many skilled and capable employees who demonstrate

their commitment to the Agency’s mission every day. The Agency partners

with a host of corporations, nonprofits, and private voluntary organizations

that demonstrate a similar dedication to their work and provide high-quality

services and support. By excluding ineligible suppliers and contractors from

USAID-financed activities, USAID’s suspension and debarment process

reinforces the credibility and effectiveness of the Agency’s efforts and those

of its implementing partners. The Agency’s suspension and debarment

process also helps other Federal agencies avoid doing business with firms

that have serious performance and ethical issues. We look forward to

continuing to work with USAID to strengthen its suspension and debarment

efforts in support of these ends.
                                       -10-


      I thank you for this opportunity to address the committee and

appreciate your interest in our work. I would be happy to answer any

questions you may have at this time.
